APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:

Appendix D:

23092.3

Court of appeals opinion,
Aug. 21, 2020 ............................................ 1a
District court dismissal order,
Sept. 25, 2018 ......................................... 10a
District court order denying
reconsideration,
Jan. 18, 2019 ........................................... 16a
Court of appeals order,
Oct. 23, 2020 ........................................... 18a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2019-1558
RICHARD SOWINSKI,
Plaintiff-Appellant,
v.
CALIFORNIA AIR RESOURCES BOARD,
Defendant-Appellee.
Filed: August 21, 2020
Appeal from the United States District Court
for the Northern District of California
Before NEWMAN, LOURIE, and SCHALL,
Circuit Judges.
OPINION
PAULINE NEWMAN, Circuit Judge:
Dr. Richard Sowinski appeals the dismissal, on the
ground of res judicata, of his patent infringement suit

(1a)

2a
against the California Air Resources Board. 1 He raises
two principal arguments: (1) that res judicata does not
apply because his present complaint seeks damages only
for infringement that occurred after conclusion of his
prior suits and (2) that res judicata does not apply because the prior suit was resolved on procedural grounds,
without reaching the merits of infringement. We conclude
that the district court’s decision is in accordance with law
and precedent and is within the court’s discretionary authority, and is affirmed.
BACKGROUND
The first set of State and Federal lawsuits
On November 24, 2015, Dr. Sowinski filed suit in the
California Superior Court in Orange County, against the
California Air Resources Board (“CARB”) and several individual and corporate defendants associated with
CARB. The three counts of the complaint were (1) infringement of United States Patent No. 6,601,033 (“the
’033 patent”), (2) violation of California Welfare & Institutions Code elder abuse laws, and (3) violation of California Business & Professions Code § 17200 et seq. All three
counts are associated with infringement of the ’033 patent, entitled “Pollution Credit Method Using Electronic
Networks,” which describes and claims an electronic
method and apparatus for validating and trading consumer pollution-control tax credits. Dr. Sowinski stated
that the ’033 patent is infringed by California’s Cap-andTrade Program auctions.

1
Sowinski v. Cal. Air Res. Bd., No. 18-CV-3979-LHK, 2018 WL
9841114 (N.D. Cal. Sept. 25, 2018) (“Dist. Ct. Op.”); id., (N.D. Cal.
Jan. 18, 2019) (Dkt. No. 29) (“Recon. Op.”).

3a
On the motion of a defendant, the suit was removed to
the United States District Court for the Central District
of California. Pre-trial proceedings included the filing of
several motions to dismiss. After Dr. Sowinski moved to
file an amended complaint, the parties filed a joint stipulation to withdraw the amended complaint and postpone
the hearing on the motions to dismiss. The joint stipulation included the statement that the motions to dismiss
were “potentially case dispositive.” CARB Br. 8.
Dr. Sowinski did not file a response to the motions to
dismiss. After the period set in the local rules for such response, the district court dismissed the complaint “pursuant to Central District of California Local Rule 7-12,
which provides that the failure to file a document within
a deadline ‘may be deemed consent to the granting or denial of the motion.’” Dist. Ct. Op. at *2. The dismissal was
with prejudice and without leave to amend.
Dr. Sowinski appealed to the Federal Circuit. We recognized Ninth Circuit precedent that failure to oppose a
motion to dismiss may lead to dismissal with prejudice.
See, e.g., Owens v. Kaiser Foundation Health Plan, Inc.,
244 F.3d 708, 711, 714 (9th Cir. 2001). We affirmed the
dismissal, concluding that the district court had considered all of the relevant factors as well as the applicable
case law, and that there was no clear error of judgment.
We concluded that the dismissal was properly with prejudice because Dr. Sowinski “stipulated that ‘the Motions
to Dismiss are potentially case dispositive,’ but nevertheless conceded and reaffirmed that [he] failed to oppose.”
Sowinski v. Cal. Air Res. Bd., 720 F. Appx 615 (Fed. Cir.
2017) (“Sowinski I”), at 619. Our mandate issued on December 18, 2017.

4a
The second set of State and Federal lawsuits
On January 31, 2018 Dr. Sowinski filed a complaint in
the Superior Court of California in Orange County. The
complaint was substantially identical to his prior complaint, except that he sought damages only for infringement after the decision in Sowinski I. He soon voluntarily
dismissed the Superior Court action, and on July 2, 2018
he filed the same complaint in the United States District
Court for the Northern District of California. The complaint stated the same three counts as in Sowinski I: infringement of the ’033 patent, violation of California elder
abuse laws, and violation of the California Business &
Professions Code. CARB was the only named defendant.
Dr. Sowinski filed an application in the district court
to proceed in forma pauperis. CARB moved for dismissal
on several grounds: res judicata, Eleventh Amendment
immunity from suit, and patent invalidity. The district
court dismissed the complaint on the ground of res judicata, observing that the dismissal of the same claims in
the prior litigation against the same defendant “was an
adjudication on the merits.” Dist. Ct. Op. at *2. The court
“[found] that the Complaint is frivolous and fails to state
a claim upon which relief can be granted.” Id. at *3.
This appeal followed.
DISCUSSION
In reviewing a ruling of dismissal, “[t]he trial court’s
dismissal should not be disturbed unless there is a definite and firm conviction that the court below committed a
clear error of judgment in the conclusion it reached upon
a weighing of the relevant factors.” Ferdik v. Bonzelet,
963 F.2d 1258, 1260 (9th Cir. 1992) (citations and quota-

5a
tion marks omitted). For review of the district court’s dismissal on the ground of res judicata, we apply the procedural law of the regional circuit, and any aspects unique
to patent law are reviewed under Federal Circuit law. Acumed LLC v. Stryker Corp., 525 F.3d 1319, 1323 (Fed.
Cir. 2008).
Res judicata, or claim preclusion, may be based on
failure to prosecute
Res judicata arises when the prior case or claim was
previously tried and the merits were adjudicated. “In civil
cases, a claim generally may not be tried if it arises out of
the same transaction or common nucleus of operative
facts as another already tried.” Currier v. Virginia, 138
S. Ct. 2144, 2154 (2018). The Ninth Circuit applies the
general rule that preclusion applies when the prior suit:
“(1) involved the same ‘claim’ or cause of action as the
later suit, (2) reached a final judgment on the merits, and
(3) involved identical parties or privies.” Mpoyo v. Litton
Electro-Optical Sys., 430 F.3d 985, 987 (9th Cir. 2005)
(quoting Sidhu v. Flecto Co., 279 F.3d 896, 900 (9th Cir.
2002)). See, e.g., Stewart v. U.S. Bancorp, 297 F.3d 953,
956 (9th Cir. 2002) (same).
Dr. Sowinski argues that the merits of patent infringement were not adjudicated in Sowinski I, for the
action was dismissed because he did not comply with the
district court’s local rule for responding to a motion to dismiss. He argues that this was not a final judgment on the
merits, because the dismissal was based on the technicality of a local deadline. He states that the imposition of res
judicata on this basis is “manifestly unjust” because
there was no trial of the question of infringement, and

6a
that if an infringement suit is now barred his patent is essentially invalidated because the CARB Cap-and-Trade
Program is the only known infringing activity.
The district court cited Johnson v. U.S. Department
of the Treasury, 939 F.2d 820, 825 (9th Cir. 1991) for the
holding that “dismissal for failure to prosecute should be
‘treated as an adjudication on the merits for purposes of
preclusion.’” Dist. Ct. Op. at *2. On Dr. Sowinski’s request for reconsideration, the district court cited the Federal Circuit’s statement in Senju Pharmaceutical Co. v.
Apotex Inc., 746 F.3d 1344, 1349 (Fed. Cir. 2014) that:
“Claim preclusion will generally apply when a patentee
seeks to assert the same patent against the same party
and the same subject matter.” Recon. Op. at 2.
Federal Rule of Civil Procedure 41(b) provides that a
dismissal for failure to prosecute “operates as an adjudication on the merits,” with exceptions not here applicable:
41(b) Involuntary Dismissal; Effect. If the plaintiff
fails to prosecute or to comply with these rules or a
court order, a defendant may move to dismiss the action or any claim against it. Unless the dismissal order
states otherwise, a dismissal under this subdivision
(b) and any dismissal not under this rule—except one
for lack of jurisdiction, improper venue, or failure to
join a party under Rule 19—operates as an adjudication on the merits. . . .
The Federal Circuit has applied these principles. See, e.g.,
Nystrom v. Trex Co., 580 F.3d 1281, 1284-85 (Fed. Cir.
2009) (“In its simplest construct, [claim preclusion bars]
the relitigation of a claim, or cause of action, or any possible defense to the cause of action which is ended by a
judgment of the court.”); Senju, supra.

7a
We conclude that the district court properly applied
preclusion on this ground.
Preclusion may apply to claims that arise after the
prior judgment
Dr. Sowinski argues that preclusion cannot apply, as
a matter of law, because he is seeking damages only for
the period after conclusion of the Sowinski I litigation.
He cites the principle that: “While the [prior] judgment
precludes recovery on claims arising prior to its entry, it
cannot be given the effect of extinguishing claims which
did not even then exist and which could not possibly have
been sued upon in the previous case.” Sowinski Br. 3-4.
(quoting Lawlor v. Nat’l Screen Serv. Corp., 349 U.S. 322,
328 (1955)). He also cites Ninth Circuit precedent that
“[f]ailure to gain relief for one period of time does not
mean that the plaintiffs will necessarily fail for a different
period of time.” Sowinski Br. 4 (quoting Harkins Amusement Enters., Inc. v. Harry Nace Co., 890 F.2d 181, 183
(9th Cir. 1989)). However, in those cases the second litigation related to different conduct and different alleged
violations or litigants, Lawlor, 349 U.S. at 328, or “facts
which by the defendants’ own concession are at least 10
percent different from the facts alleged” in the previous
litigation and that occurred after the previous litigation,
Harkins, 890 F.2d at 183.
Dr. Sowinski alleges no different conduct or acts, and
the defendant is the same. However, he argues that a
claim “arising subsequent to a prior action . . . [is] not
barred by res judicata” even if the new claim is “premised
on facts representing a continuance of the same course of
conduct.” Reply Br. 3 (internal quotation marks omitted).
He cites Storey v. Cello Holdings, LLC, 347 F.3d 370 (2d

8a
Cir. 2003), for the position that “[c]laims arising subsequent to a prior action need not, and often perhaps could
not, have been brought in that prior action; accordingly,
they are not barred by res judicata regardless of whether
they are premised on facts representing a continuance of
the same course of conduct.” Id. at 383 (internal quotation
marks omitted).
It is correct that when an act has been adjudged
wrongful, a subsequent suit may be brought if the violation is repeated. However, when the act has been adjudged not wrongful, its repetition cannot be challenged
in a subsequent suit. In Brain Life, LLC v. Elekta Inc.,
746 F.3d 1045 (Fed. Cir. 2014), the court considered the
effect of a prior judgment of non-infringement; the court
explained that preclusion does not apply to new or
changed products or methods, but does apply when the
accused products or methods are essentially the same. Id.
at 1054. The court summarized:
The principle that, when an alleged infringer prevails
in demonstrating noninfringement, the specific accused device(s) acquires the “status” of a noninfringing device vis-à-vis the asserted patent claims is “[a]n
essential fact of a patent infringement claim” . . . . And,
when the devices in the first and second suits are “essentially the same,” the “new” product(s) also acquires the status of a noninfringing device vis-à-vis
the same accusing party or its privies.
Id. at 1057 (quoting Foster v. Hallco Mfg. Co., 947 F.2d
469, 479-80 (Fed. Cir. 1991)). See Lawlor, 349 U.S. at 383
(a claim based on new and different facts is not precluded,
whereas a claim based on the same facts is precluded).

9a
Here the accused CARB activity had been held not to
be infringing, for Dr. Sowinski’s failure to respond to the
motions to dismiss was treated as a judgment on the merits. He does not allege any different facts; to the contrary,
his complaint states that CARB’s on-going activities are
the same as existed for Sowinski I.
The district court properly held that the dismissal in
Sowinski I is res judicata, for CARB is charged with the
same acts of infringement of the same patent. Although
Dr. Sowinski stresses the inequity that he did not obtain
resolution of the question of infringement, CARB points
out that he had the opportunity to do so. The application
of preclusion “encourages reliance on judicial decisions,
bars vexatious litigation, and frees the courts to resolve
other disputes,” Brown v. Felsen, 442 U.S. 127, 131
(1979). The district court acted within its discretion and
in accordance with law, in applying res judicata. The dismissal is affirmed.
AFFIRMED

10a
APPENDIX B
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
CASE NO. 18-CV-03979-LHK
RICHARD SOWINSKI,
Plaintiff,
v.
CALIFORNIA AIR RESOURCES BOARD,
Defendant.
Filed: September 25, 2018
ORDER DENYING APPLICATION TO PROCEED
IN FORMA PAUPERIS; DISMISSING
COMPLAINT WITHOUT LEAVE TO AMEND
Before LUCY H. KOH, United States District Judge.
On July 2, 2018, Plaintiff Richard Sowinski (“Plaintiff”) filed a Complaint against the California Air Resources Board (“Defendant”). ECF No. 1 (“Compl.”). On
August 10, 2018, Plaintiff filed an Application to Proceed
in Forma Pauperis (“IFP Application”). ECF No. 11. For
the reasons stated below, the Court DENIES Plaintiff’s
IFP Application and DISMISSES the Complaint without
leave to amend.

11a
Under the federal in forma pauperis statute, a court
may authorize the commencement of a suit without prepayment of the filing fee required by the clerk of the court
if the plaintiff submits an affidavit of poverty showing
that he or she is “unable to pay such fees or give security
therefor.” 28 U.S.C. § 1915(a). However, even if the plaintiff makes an adequate showing of poverty, a court may
deny leave to proceed in forma pauperis if it determines
at the outset “from the face of the proposed complaint
that the action is frivolous or without merit.” Tripati v.
First Nat’l Bank & Trust, 821 F.2d 1368, 1370 (9th Cir.
1987); see also 28 U.S.C. § 1915(e); Calhoun v. Stahl, 245
F.3d 845, 845 (9th Cir. 2001) (per curiam) (“[T]he provisions of 28 U.S.C. § 1915(e)(2)(B) are not limited to prisoners.”).
Plaintiff has declared under penalty of perjury that
Plaintiff is not presently employed, that Plaintiff receives
$2,248 per month in Social Security, and that Plaintiff
currently possesses assets of $35 in cash. IFP Application
at 1–3. Given Plaintiff’s monthly income and expenses,
the Court determines that Plaintiff is unable to pay the
filing fee in this case.
However, when reviewing an application to proceed in
forma pauperis, the Court must also conduct a sua sponte
review of the complaint and may dismiss the case if the
complaint is frivolous, malicious, or fails to state a claim
upon which relief may be granted. 28 U.S.C. §
1915(e)(2)(B).
Upon review of Plaintiff’s Complaint, the Court finds
that the Complaint is frivolous and fails to state a claim
upon which relief can be granted. Plaintiff sues Defendant for patent infringement, elder abuse, and deceptive

12a
business practices under California Business and Professions Code Section 17200 et seq. Compl. ¶¶ 18–43. Plaintiff’s lawsuit concerns Defendant’s alleged infringement
of Plaintiff’s patent of a pollution credit exchange, U.S.
Patent 6,601,033 (“Patent ’033”). Compl. ¶ 1. Plaintiff’s elder abuse claim is predicated on Defendants’ alleged
wrongful appropriation of Plaintiff’s patent. Id. ¶¶ 35–36.
Likewise, Plaintiff’s deceptive business practices claim is
predicated on “Defendants’ conduct in infringing the
SOWINSKI PATENT.” Id. ¶ 41. Plaintiff alleges damages in excess of $100 million. Id. ¶ 42. Defendant has filed
a motion to dismiss, ECF No. 12, and a request for judicial notice. ECF No. 13.
Plaintiff’s Complaint fails to state a claim because res
judicata bars Plaintiff’s claims. The doctrine of res judicata bars suit “on any claims that were raised or could
have been raised in a prior action.” Stewart v. U.S. Bancorp, 297 F.3d 953, 956 (9th Cir. 2002) (internal quotation
marks omitted). Res judicata applies when three requirements are satisfied: (1) the prior proceeding resulted in a
final judgment on the merits; (2) the present action involves substantively the same claims or causes of action
as the prior proceeding; and (3) the party to be precluded
was a party or in privity with a party to the prior proceeding. See Mpoyo v. Litton Electro-Optical Sys., 430 F.3d
985, 987 (9th Cir. 2005). All three elements are satisfied
in this case.
In 2015, Plaintiff filed a patent infringement lawsuit
against Defendant and other parties. See Sowinski v.
CARB, 720 F. App’x 615 (Fed. Cir. 2017) (“Sowinski I”).
Plaintiff first filed his lawsuit in Orange County Superior
Court, and one defendant removed the case to federal

13a
court. Id. at 616. Plaintiff brought claims for “patent infringement, elder abuse, and violations of California Business and Professions Code § 17200 et seq.” Id. In federal
court, the defendants moved to dismiss, and Plaintiff filed
a First Amended Complaint (“FAC”) rather than oppose
the motion. Id. The defendants moved to strike the FAC,
at which point the parties stipulated that Plaintiff would
withdraw the FAC and defendants would withdraw their
motion to strike. Id. The district court accepted the parties’ stipulation, and then granted defendants’ motion to
dismiss Plaintiff’s original complaint pursuant to Central
District of California Local Rule 7-12, which provides that
the failure to file a document within a deadline “may be
deemed consent to the granting or denial of the motion.”
Id. at 617. The Federal Circuit applied Ninth Circuit law
and affirmed the district court’s dismissal of the Sowinski
I complaint. Id. at 619. The Court concludes that the dismissal of Sowinski I precludes Plaintiff’s Complaint in
the instant matter.
At the threshold, Defendant asks the Court to take judicial notice of Plaintiff’s complaint in Sowinski I. ECF
No. 13. The Court may take judicial notice of matters that
are either “generally known within the trial court’s territorial jurisdiction” or “can be accurately and readily determined from sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b). Public records,
including judgments and other public filed documents,
are proper subjects of judicial notice. See, e.g., United
States v. Black, 482 F.3d 1035, 1041 (9th Cir. 2007)
(“[Courts] may take notice of proceedings in other courts,
both within and without the federal judicial system, if
those proceedings have a direct relation to matters at issue.”). Thus, the Court takes judicial notice of the

14a
Sowinski I complaint, which is a public record with a direct relationship to the Complaint in this case.
Plaintiff raised all of the claims in the instant Complaint in Sowinski I, which satisfies the first element of
res judicata. As explained above, Plaintiff’s causes of action in the Complaint are all predicated on Defendant’s
alleged infringement of Patent ’033. Similarly, in
Sowinski I, Plaintiff also brought causes of action for patent infringement, elder abuse, and unfair competition
predicated on the defendants’ alleged infringement of Patent ’033. See ECF No. 13 at 8–21 (Plaintiff’s causes of
action in Sowinski I). As Defendant points out, the instant Complaint even includes the allegation—repeated
from the Sowinski I complaint—that “Orange County is
a proper venue.” Compl. ¶ 3. Plaintiff’s instant Complaint
thus arises from “the same transactional nucleus of facts”
as the Sowinski I complaint. See Headwaters Inc. v. U.S.
Forest Serv., 399 F.3d 1047, 1052 (9th Cir. 2005).
Second, the district court’s dismissal was an adjudication on the merits. A dismissal for failure to prosecute
“operates as an adjudication on the merits.” Fed. R. Civ.
Proc. 41(b). As a result, the Ninth Circuit has held that a
dismissal for failure to prosecute should be “treated as an
adjudication on the merits for purposes of preclusion.”
Johnson v. U.S. Dep’t of Treasury, 939 F.2d 820, 825 (9th
Cir. 1991). The district court in Sowinski I dismissed
Plaintiff’s complaint for failure to prosecute under Central District of California Local Rule 7-12. 720 F. App’x at
617. That rule provides that “[t]he failure to file any required document, or the failure to file it within the deadline, may be deemed consent to the granting or denial of
the motion.” In pertinent part, the rule mirrors Federal
Rule of Civil Procedure 41(b), which permits dismissal

15a
when a “plaintiff fails to prosecute” an action. The Court
thus concludes that the district court’s dismissal in
Sowinski I, which the Federal Circuit affirmed, was a final judgment on the merits.
Third, both Plaintiff and Defendant were parties to
the previous suit. See ECF No. 13 at 5. As further evidence of how completely Plaintiff’s Complaint mirrors
the Sowinski I complaint, the Complaint continues to include allegations against the Sowinski I defendants, even
though they are not named defendants in the instant suit.
See, e.g., Compl. ¶¶ 25–26.
Accordingly, because Plaintiff’s Complaint is clearly
barred by res judicata, the Court concludes that Plaintiff’s Complaint is frivolous and denies his IFP Application on that basis. See Minetti v. Port of Seattle, 152 F.3d
1113, 1115 (9th Cir. 1998) (per curiam) (affirming the district court’s denial of an in forma pauperis application because plaintiff’s complaint was barred by res judicata).
For the reasons stated above, Plaintiff’s Complaint is
frivolous and fails to state a claim upon which relief can
be granted. The Court thus DENIES Plaintiff’s IFP Application and DISMISSES Plaintiff’s Complaint without
leave to amend.
IT IS SO ORDERED.
Dated: September 25, 2018
s/ Lucy H. Koh
LUCY H. KOH
United States District Judge

16a
APPENDIX C
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
CASE NO. 18-CV-03979-LHK
RICHARD SOWINSKI,
Plaintiff,
v.
CALIFORNIA AIR RESOURCES BOARD,
Defendant.
Filed: January 18, 2019
ORDER DENYING PLAINTIFF’S MOTION FOR
RECONSIDERATION
Before LUCY H. KOH, United States District Judge.
In this lawsuit, Plaintiff asserts that the same party
infringed the same patent through the same conduct as
Plaintiff did in Plaintiff’s previously dismissed case. Compare ECF No. 13 at 6, ¶ 1 (Plaintiff’s complaint in previous case alleging that “[s]ince 2013” Defendant has conducted cap-and-trade auctions that “directly infringe[]”
Plaintiff’s patent) with ECF No. 1, ¶ 1 (Plaintiff’s instant
Complaint alleging that “[s]ince 2013” Defendant has
conducted cap-and-trade auctions that “directly infringe[]” Plaintiff’s patent). In his motion for reconsideration, Plaintiff even acknowledges that the instant lawsuit

17a
is predicated on the same conduct as Plaintiff’s previous
suit. ECF No. 19 at 2 (“Defendant violates the patent on
a yearly basis when it runs the CARB Auction.”).
As a result, res judicata bars Plaintiff’s instant lawsuit. See Senju Pharm. Co., Ltd. v. Apotex Inc., 746 F.3d
1344, 1349 (Fed. Cir. 2014) (“Claim preclusion will generally apply when a patentee seeks to assert the same patent against the same party and the same subject matter.”); see also Single Chip Sys. Corp. v. Intermec IP
Corp., 495 F. Supp. 2d 1052, 1062 (S.D. Cal. 2007) (dismissing as barred by res judicata a later-in-time suit “assert[ing] identical facts in the type of product and patent
action” as the earlier suit). Therefore, the Court
DENIES Plaintiff’s motion for reconsideration.
IT IS SO ORDERED.
Dated: January 18, 2019
s/ Lucy H. Koh
LUCY H. KOH
United States District Judge

18a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2019-1558
RICHARD SOWINSKI,
Plaintiff-Appellant,
v.
CALIFORNIA AIR RESOURCES BOARD,
Defendant-Appellee.
Filed: October 23, 2020
Appeal from the United States District Court
for the Northern District of California
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
SCHALL *, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, AND
STOLL, Circuit Judges.
PER CURIAM.
ORDER
Circuit Judge Schall participated only in the decision on the petition
for panel rehearing.

*

19a
Appellant Richard Sowinski filed a petition for rehearing en banc. The petition was first referred as a petition for rehearing to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 30,
2020.
FOR THE COURT
October 23, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

